           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 THE SOCIAL SECURITY ADMINISTRATION’S
        HIRING AND TRAINING OF
 INFORMATION TECHNOLOGY SPECIALISTS

      March 2010     A-13-09-19082




  EVALUATION
    REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
M EM ORANDUM

Date:      March 15, 2010                                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Hiring and Training of Information Technology
           Specialists (A-13-09-19082)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) human capital
           activities related to the hiring, training, and retention of staff who occupy the mission-
           critical position of information technology (IT) specialist.

           BACKGROUND

           SSA, like many other Federal agencies, is being challenged to address its human
           capital shortfalls. To minimize the impact of the loss of human capital and address
           expected workload increases, SSA plans to increase its use of automation to
           continuously provide superior services to the American public. The IT specialist, 1
           identified by SSA as 1 of its 15 mission-critical occupations, 2 is crucial to the effective
           operation of the Agency’s present and future information systems.

           As of June 30, 2009, approximately 3,715 (about 6 percent) of SSA’s
           65,034 employees were classified as IT specialists. The Agency projects about
           42 percent of its IT specialists will retire by Fiscal Year (FY) 2016. It is imperative that
           SSA focus on its human capital needs as its workloads increase and their complexity
           requires an increased level of expertise and skill.




           1
            Unless otherwise stated, the term IT specialist is used generically in this report to refer to all IT
           specialist-related positions regardless of position specialty titles.
           2
            According to SSA’s FY 2009 Human Capital Implementation Plan, the Agency has 15 mission-critical
                                                                             th
           occupations, 14 of which are formalized by specific series. The 15 , leadership, appears in several of the
           14 mission-critical occupations.
Page 2 - The Commissioner


There are 11 specialty titles for IT specialists. Specialty titles, as identified by the Office
of Personnel Management (OPM), are assigned to further identify the duties and
responsibilities performed and the special knowledge and skills needed for the IT
specialist position. In certain cases, specialty titles are combined when two specialties
are significant to the position. Finally, the basic IT specialist position title is used when
there is no established specialty area or for positions involving work in more than two
established specialties. See Appendix B for OPM’s classifications for IT specialists.

During our review, we assessed certain human capital activities related to the IT
specialist position. We reviewed the five Deputy Commissioner offices with the highest
number of IT specialists. These offices included the Deputy Commissioners for
Systems (DCS); Operations (DCO); Quality Performance (DCQP); Budget, Finance and
Management (DCBFM); and Disability Adjudication and Review (DCDAR). See Table 1
for the distribution of IT specialists in these offices.

              Table 1: Distribution of the Agency’s IT Specialists Among
                            OPM’s Position Specialty Titles
                                     June/July 2009

  IT Specialty Position
         Titles                  DCS          DCO         DCQP        DCBFM      DCDAR       TOTALS
                               Staff   %    Staff   %    Staff   % Staff %      Staff   %    Staff   %
      Policy and Planning       167     6     7      3    --     --  7    9      20     27    201     6
     Enterprise Architecture      1    --    --     --    --     -- --   --      --     --     1     --
            Security             91     3    17      6     5     5  17   22       5     7     135     4
       Systems Analysis        1,045   35    28     10    --     --  3   4       --     --   1,076   31
     Applications Software      814    27    83     30    --     --  7    9       2      3    906    26
       Operating Systems         79     3    --     --    37     38  2    3      --     --    118     3
 Communications and Network
            Services             94     3    30     11    --     --    3    4    --     --    127    4
       Data Management           46     2    19      7     2      2    5    7    --     --     72    2
  Internet- Web Development       3    --   16      6     3      3    8    11    --     --     30    1
    Systems Administration      220    7     19     7     20     21   15   20    28     38    302    9
       Customer Support          67     2    56     20    30     31    9   12    18     24    180    5
         IT Specialists         323    11    --     --    --     --   --   --    --     --    323    9
         SES Positions           15    1     --     --    --     --   --   --     1      1     16    --
Totals                         2,965        275           97          76         74          3,487


IT specialists in the five Deputy Commissioner offices we reviewed comprised
approximately 94 percent of all IT specialists in the Agency. Since about 85 percent of
the IT specialists reviewed are in DCS, our work results generally focused on the
human capital activities of this office. See Appendix C for our Scope and Methodology.
See Appendix D for additional background information on the IT specialists’ role at
SSA.
Page 3 - The Commissioner


RESULTS OF REVIEW

For the five Deputy Commissioner offices reviewed, we did not identify problems or
concerns regarding the offices’ human capital activities related to the hiring, training,
and retention of IT specialists. The offices reported using a multitude of efforts to
attract, hire, train, and retain IT specialists.

HIRING OF IT SPECIALISTS

The five Deputy Commissioner offices reported using several hiring and recruitment
initiatives to attract IT specialists to the Agency. In addition, we found the hiring of IT
specialists in SSA was mostly a decentralized process with each component
determining the skills its new hires should possess. Finally, we determined over the last
7 years, the components had hired approximately 1.3 new IT specialists for every one
specialist who separated from the Agency.
                                                              3
DCS staff used a biennial internal Skills Inventory Analysis to determine the critical
skills needed in the component. Based on this Analysis, DCS staff stated entry-level IT
specialists possessing knowledge or experience in JAVA or COBOL/CICS are generally
in the highest demand in the component. According to DCS staff, 190 IT specialists
were hired with COBOL experience from FYs 2005 through 2008. In addition, 105 IT
specialists have been trained in COBOL over the last 5 years. We requested
information from DCS about the extent to which COBOL is still used in the Agency’s
computer programs. Staff from DCS provided a timeline indicating the Agency intends
to convert its COBOL systems to Web-based technology by the end of FY 2017. SSA
expects to continue to be able to hire and/or train sufficient staff with COBOL
experience to sustain Agency operations.

DCQP staff reported entry-level IT specialist positions generally require a basic
knowledge of current commercial computer processing standards and techniques.
Further, DCDAR staff stated the knowledge, skills, and abilities needed for IT
specialists in the component include experience in developing, testing, modifying, and
documenting programming activities as well as experience in using Visual Basic and
WebFocus.

To identify qualified candidates for employment as IT specialists, the Agency relies on
employee referrals, email/mail submissions, and internal/external job postings. In
addition, SSA uses such recruitment tools as the Student Career Experience Program
(SCEP), Federal Career Intern Program (FCIP), Career Opportunities Training
Agreements, and President Management Fellows Program to identify qualified
candidates. Based on data provided by the Agency, we determined SSA hired 381 IT
specialists under SCEP and FCIP during FYs 2005 through 2009. See Table 2 for
more information.


3
    See DCS’ Skills Analyses, page 7.
Page 4 - The Commissioner


                 Table 2: IT Specialists Hired Under SCEP and FCIP
                                   FYs 2005-2009

                Hiring
              Authorities      FY05      FY06      FY07      FY08      FY09      TOTAL
                SCEP             2         --       2          --        --        4
    DCS
                FCIP            65         7        27         66       166       331
                SCEP             --        1         1         2         --        4
    DCO
                FCIP             2         1         1         3         4         11
                SCEP             --        --        2         2         --        4
    DCQP
                FCIP             --        --        --        1         1         2
                SCEP             2         2         3         --        --        7
   DCBFM
                FCIP             3         3         3         7         2         18
                SCEP             --        --        --        --        --        --
   DCDAR
                FCIP             --        --        --        --        --        --
           TOTALS               74        14        39         81       173       381


The five Deputy Commissioner offices reported using a multitude of recruitment efforts
to attract entry-level IT specialists. For example, DCS and DCBFM staff stated they
participate in 20 to 30 local and national career fairs. DCS staff reported they target
universities and colleges with strong IT curriculums for recruitment efforts. In addition,
DCS staff explained they have established collegial relationships with local universities
so students who are obtaining the knowledge necessary for DCS to carry out its
mission are familiar with the office’s employment opportunities.

DCS staff explained that, for the last 3 years, the office has hosted an IT Job Shadow
Day event to attract local high school students enrolled in IT programs with an interest
in pursuing IT studies and careers. Students have toured SSA’s facilities, spoken with
technical professionals and DCS executives, and participated in hands-on activities that
were intended to provide students a firsthand look at a workday for an IT specialist at
SSA.

Based on data provided by the Agency, we computed the number of IT specialists hired
for the Deputy Commissioner offices reviewed and the number of IT specialists
separated from these components. These personnel actions fluctuate significantly from
year to year, with the majority of new hires occurring in DCS during FYs 2005 and 2009.
In total, the components hired approximately 1.3 new IT specialists for every IT
specialist who separated from the Agency over the 7-year period. See Table 3 for more
information.
Page 5 - The Commissioner


        Table 3: Comparison of IT Specialists Hired and IT Specialists Separated
                      from the Five Components Under Review
                                    FYs 2003-2009

                  Personnel Actions         FY03   FY04 FY05 FY06          FY07 FY08 FY09       TOTAL
                         Hires               85     243    396       58    121    176    378    1,457
                      Separations           124     133    214      167    172    133    113    1,056
     DCS
                        Change              (39)    110    182     (109)   (51)   43     265    401
               (Hires/Separations) Ratio    0.69    1.83   1.85     0.35   0.70   1.32   3.35    1.38
                         Hires               27      29     16       7      12      6     11     108
                      Separations            10      21     20      18      21     18     15     123
     DCO
                        Change              17       8      (4)    (11)     (9)   (12)    (4)    (15)
               (Hires/Separations) Ratio    2.70    1.38   0.80    0.39    0.57   0.33   0.73    0.88
                         Hires                --     --     --      --      --     3      4        7
                      Separations             --     --     --      --      6      6      8       20
     DCQP
                        Change                --     --     --      --     (6)    (3)    (4)     (13)
               (Hires/Separations) Ratio      --     --     --      --      --    0.5    0.5     0.35
                         Hires                6       3      3       6       2      8     3       31
                      Separations             4       4      7      10       2      4     2       33
    DCBFM
                        Change               2       (1)    (4)     (4)     --     4      1       (2)
               (Hires/Separations) Ratio    1.50    0.75   0.43    0.60    1.00   2.00   1.50    0.94
                         Hires                --     --     --      2        4     --     3       9
                      Separations             --     --     --      1        3     2      2       8
    DCDAR
                        Change                --     --     --      1       1     (2)     1       1
               (Hires/Separations) Ratio      --     --     --      2      1.33    --    1.50    1.13
                         Hires              118     275    415       73    139    193    399    1,612
                      Separations           138     158    241      196    204    163    140    1,240
    TOTALS
                        Change              (20)    117    174     (123)   (65)   30     259    372
               (Hires/Separations) Ratio    0.86    1.74   1.72     0.37   0.68   1.18   2.85    1.30


DCS and DCO staff expressed concern over the impending retirement wave of IT
specialists at the Agency. Yet, each of the five offices we reviewed indicated current IT
specialist hiring efforts are adequate for meeting current workload needs and goals.
However, DCO, DCQP, and DCBFM were not able to replace the number of IT
specialists separated from those offices from FYs 2003 through 2009.

Future Staffing Needs

The Agency’s IT Systems Plan covers 2 FYs and documents the allocation of its
resources, including IT specialists. Currently, DCS employees and contractors provide
the technical support needed for carrying out initiatives identified in the Agency’s IT
Systems Plan. 4 DCS staff indicated the component’s hiring of IT specialists is often
determined by the workyears required to address the Agency’s workloads included in
the IT Plan. DCS staff also explained the component uses contractors for its IT


4
    See Appendix E for an Overview of SSA’s IT planning process.
Page 6 - The Commissioner


workloads, depending on whether there is additional funding in the DCS budget, or
when unplanned or ad-hoc projects occur. DCS staff explained the office used
approximately 4,539 IT contractor workyears during FYs 2005 through 2009. Based on
the skills needed to fulfill initiatives included in the IT Plan, DCS determines its future
staffing needs.

IT SPECIALIST TRAINING

The five Deputy Commissioner offices reported having a variety of training opportunities
for their IT specialists. Staff from the components under review reported different
training plans had been developed for entry-level and senior-level IT employees.
Finally, the staff explained strategies for promoting knowledge sharing between entry-
and senior-level employees before employees leave or retire from the Agency.

Entry-Level Training

Generally, we found the Deputy Commissioner offices included in our review
determined training needs of the entry-level IT specialists individually. IT specialist
training depends on the position being filled 5 as well as the specific employee’s
knowledge and skills. A combination of centralized group training, "in house"
Government courses, and private vendor training is offered for entry-level employees.

In DCS, entry-level new hires are automatically scheduled to complete a set of training
classes. See Table 4 for the list of classes. Also, DCS’ Office of Systems’ Training,
Communications and Recruitment Branch contacts the components in DCS to
determine job-specific training needs for entry-level new hires. Using information
provided by these offices, the Training, Communications and Recruitment Branch
schedules job-specific training. The training may include courses listed in Table 5.




5
  Pending legislation entitled “Senate Bill 773, Cybersecurity Act of 2009” would require employees in the
“IT Security” position to have a professional certification to be employed with the Government in the future.
If enacted, certification would be required within 3 years. (S.773 Cybersecurity Act of 2009, § 7, Licensing
and Certification of Cybersecurity Professionals).
Page 7 - The Commissioner


               Table 4: Group Training Courses for Entry-Level IT Specialists
                                      FYs 2005-2009

                          Group Training Classes                        Number of IT Specialists
                                                                        Who Completed Training
                         Title II/XVI Fundamentals                               366
                              Customer Service                                   400
                      Overview of Web Technologies                               319
            Overview of Mainframe Languages and Technologies                     383
            Structured Writing for User Procedures and Systems                   673
                               Documentation
                                Team Building                                     147
                               Generation Mix                                     314

           Table 5: Job-Specific Training Courses for Entry-Level IT Specialists
                                      FYs 2005-2009

                            Job-Specific Training                       Number of IT Specialists
                                                                        Who Completed Training
                           COBOL Programming                                     105
                               Java Training                                     507
                            Websphere Training                                   728
                               DB2 Training                                      648
                        Requirements Analyst Training                            428
                            Web Design Training                                  423
                           Cisco-related Training                                 22

DCO explained that its entry-level employees—who are hired from outside the
Agency—are often mandated to complete training that provides information on general
policy and the structure of SSA’s organization. In addition, the training is monitored,
and the IT specialists are able to provide feedback. DCQP staff explained training for
its IT specialists may be obtained through SSA-sponsored classroom and online
sources, external vendors, and/or colleges and universities.

DCS’ Skills Analyses

DCS uses a skill analysis tool to determine where skill gaps exist and training and hiring
are needed. DCS conducts a comprehensive skills inventory analysis (IT Workforce
Survey) every 2 years to assess the skills of its IT specialist workforce. The most
recent analysis was completed in 2008. The information obtained from the analysis is
also used as a vehicle for recruitment and training.

During this process, DCS supervisors are asked to complete an IT Workforce Survey,
and record the current competencies and targeted skills for each of their IT specialists.
DCS supervisors also record future staff and contractor needs for each competency
and targeted skill. 6 The difference between the component’s future needs for the next


6
    See Appendix F for the full listing of competencies and targeted skills.
Page 8 - The Commissioner


2 years and the current skills equate to competency gaps. 7 DCS minimizes and/or
closes competency gaps by training current staff and/or hiring new staff. See
Table 6 for the top 10 competency gaps identified during the 2008 survey.

                         Table 6: DCS Top 10 Competency Gaps

                                                  Number of Additional IT Specialists
                        Competency                    In Need of Competency
                         Websphere                              385
                      Web Technology                            356
                       Problem Solving                          352
                   Microsoft Desktop Tools                      340
              Oral and Written Communications                   338
                    General Analytic Skills                     289
                 Business Process Analysis                      275
                    Computer Languages                          245
                Customer Relations/Service                      243
                        Peer Review                             240

According to DCS staff, competency gaps identified during the 2008 Survey have been
closed. The gaps were closed as a result of hiring and training that took place in DCS
in 2009. In some cases, an IT specialist who was hired may have possessed more
than one of the needed competencies. DCS staff explained, “An employee’s ability to
grasp the competency through training and on the job experience determines the length
of time for [an] individual to become proficient. [DCS] provides basic training in all the
competencies listed, as well as intermediate and advanced training in the computer
language competencies. Proficiency varies on an individual basis.” See Table 7 for
updated information.




7
 DCS defines a competency gap as the number of additional employees who should have a particular
competency.
Page 9 - The Commissioner


                           Table 7: DCS’ Closure of Competency Gaps

                                                Employees         Employees Hired           Number of
                                    Gaps       Who Received       During 2009 Who         Additional IT
                                  Identified    Training in          Possessed          Specialists In Need
      Competency                   in 2008         2009             Competency           of Competency
       Websphere                     385            130                 293                     -38
     Web Technology                  356            130                 293                     -67
     Problem Solving                 352             90                 305                     -43
 Microsoft Desktop Tools             340            103                 378                    -141
      Oral & Written
     Communications                  338             239                 272                       -173
  General Analytic Skills            289              22                 272                         -5
Business Process Analysis            275              89                 272                        -86
  Computer Languages                 245             307                 326                       -388
Customer Relations/Service           243             129                 218                       -104
      Peer Review                    240               0                 326                        -86

Senior-Level Training

DCDAR staff explained training opportunities for senior-level IT specialists are generally
the same as those for entry-level specialists. However, senior-level employees can
attend Government-sponsored and/or vendor-provided training designed
exclusively for IT management staff. In DCS, team leaders, managers, and individuals
in senior technical positions are required to complete a Management Leadership
Curriculum (see Table 8 for details). DCS staff indicated 352 IT specialists completed
the Management Leadership Curriculum over the last 5 years. In addition, DCS
                                                                      8
requires that its Project Managers for “executive oversight projects," complete a 19-day
DCS Project Management Curriculum (see Table 9). DCS staff explained 58 IT
specialists completed the Project Management Curriculum during FYs 2006 through
2009.

                       Table 8: DCS Management Leadership Curriculum

                                   Training Courses                                      Time Frame
       Personnel Management Workshop - Nuts and Bolts for Managers                           4 Days
       Performance Management - Using the Performance Assessment and                         2 Days
       Communication System
       Customer Service and Coping with Change                                                   1 Day
       Effective Meetings and Winning Relationships                                              1 Day
       Strategic Planning and Responding Not Reacting                                            1 Day
       Successful Negotiating and Team Building                                                  1 Day
       Problem Solving and Goal Setting                                                          1 Day
       Coaching and Mentoring Roles in Leadership                                                1 Day




8
    Executive oversight projects are the Agency’s highest priority Office of Systems projects.
Page 10 - The Commissioner


                Table 9: DCS 19-Day Project Management Curriculum

                           Training Courses                                Time Frame
    Project Management Workshop I: Microsoft Project and Introduction        5 Days
    to Project Management
    Project Management Workshop II: Project Scope, Requirements,             5 Days
    Time, and Cost
    Project Management Workshop III: Risk, Quality, and Communication        5 Days
    Contracting Officer Technical Representative (Basic Project Officer)     4 Days

Staff in the five Deputy Commissioner offices we reviewed stated all IT specialists are
given the opportunity to develop an Individual Development Plan. The staff explained
the training needs are generally discussed between the IT specialist and his or her
supervisor, as necessary.

Knowledge Sharing

To facilitate knowledge sharing between senior- and entry-level IT specialists, the
Deputy Commissioner offices we reviewed assigned a senior-level mentor to each
entry-level employee. DCS staff indicated the mentors were experienced IT specialists
who were instructed to share knowledge with, guide, and review the work of entry-level
IT specialists. In addition, DCDAR staff stated it encourages shared work assignments
and cross-trains its IT specialists for several different IT job specialties. According to
staff, cross-training employees minimizes competency gaps among IT specialists and
mitigates employee turnover disruption.

In addition, both DCS and DCO use Windows SharePoint Services to facilitate the
transfer of knowledge in the organization. SharePoint is a browser-based collaboration
and document management platform. DCS staff stated they use the technology for
document management with centralized storage, secure access, version control,
content approval, reporting abilities, and real-time collaboration. In addition, a DCS
staff member indicated by implementing SharePoint Agencywide, teams and staffs with
similar functions are able to streamline and automate numerous processes, thereby
reducing mistakes, wait times, and miscommunications.

RETENTION OF IT SPECIALISTS

The five Deputy Commissioner offices reported using several activities to retain their IT
specialists including awards, training, promotional opportunities, and a special pay
supplement to IT specialists.

Offices also report IT specialists are provided opportunities to expand the scope of their
work. DCS staff explained different divisions within their office work under a matrix
style of management, so employees are given the opportunity for variety and change, if
requested. Likewise, the DCDAR staff stated “Our IT specialists are encouraged to
participate in the continual surge of new developments and processes, which provides
Page 11 - The Commissioner


a forum for our IT specialists to be involved in various pilots and tests, and [remain] at
the helm of new and leveraging technologies.”

In addition, SSA uses special salary rates to attract and retain IT specialists, as
authorized by OPM. As stated in OPM guidance, “Employees [are] paid a special rate
or a special pay supplement, established under appropriate authority to recruit or retain
                                                                                          9
well qualified individuals in selected agencies, occupations, work levels and locations.”
Effective January 1, 2010, IT specialists receive the following percentage supplements
in addition to the General Schedule (GS) basic rates: 40 percent at the GS-5 level;
35 percent at the GS-7 level; 30 percent at the GS-9 level; and 20 percent at the GS-11
level.

DCS staff stated a collegial work environment, developmental opportunities, and a
diverse/multi-cultural working environment are offered to IT specialists. These efforts in
DCS are to retain its IT specialists.

In addition to these activities, staff from DCQP explained that telework and tuition
reimbursement are retention initiatives offered to its IT specialists. The staff stated
approximately 3.3 percent of its IT specialists participate in telework, while 10 percent
have received tuition reimbursement for coursework directly related to their positions.

Analysis of information provided by SSA indicated most IT specialists who left the
Agency were not transferring to other employers. Of the 1,240 IT specialists separated
from the Agency over the last 7 years (see Table 2), we determined approximately
83 percent left the Agency because of retirement, health, or disciplinary actions. Only
about 17 percent separated for other reasons.

CONCLUSION
We determined over the last 7 years, the components have hired approximately
1.3 new IT specialists for every one IT specialist who separated from the Agency.
Based on our examination of data and discussions with SSA staff, the five Deputy
Commissioner offices we reviewed have established human capital activities regarding
the hiring, training, and retention of IT specialists. The offices reported using a
multitude of efforts to attract, hire, train, and retain IT specialists. We encourage the
offices to continue to periodically reassess their recruitment, training, and retention
efforts to ensure the Agency has an IT specialist workforce to meet its current and
future needs.




9
 OPM’s Central Personnel Data File Standards, Pay Rate Determinant, page 3.
http://www.opm.gov/feddata/guidance_gp59.asp
Page 12 - The Commissioner


AGENCY COMMENTS
SSA did not have any comments on our findings. (See Appendix G for the full text of
the Agency’s comments.)




                                              Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of Personnel Management Classifications for Information
             Technology Specialists
APPENDIX C – Scope and Methodology

APPENDIX D –The Information Technology Specialists’ Role at the Social Security
            Administration

APPENDIX E – Overview of the Social Security Administration’s Information
             Technology Planning Process

APPENDIX F – Deputy Commissioner for Systems’ 2008 Information Technology
             Workforce Planning—Competencies and Targeted Skills

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
DCBFM   Deputy Commissioner for Budget, Finance and Management
DCDAR   Deputy Commissioner for Disability Adjudication and Review
DCO     Deputy Commissioner for Operations
DCQP    Deputy Commissioner for Quality Performance
DCS     Deputy Commissioner for Systems
FCIP    Federal Career Intern Program
FY      Fiscal Year
GS      General Schedule
IT      Information Technology
OIG     Office of the Inspector General
OPM     Office of Personnel Management
SCEP    Student Career Experience Program
SSA     Social Security Administration
OIG     Office of the Inspector General
SSN     Social Security Number
                                                                                         Appendix B

 Office of Personnel Management
 Classifications for Information Technology
 Specialists
 In 2008, the Office of Personnel Management (OPM) established 11 distinct specialties
 for the information technology (IT) specialist position. In its guidance, OPM stated,
 “The growing use of information technology throughout our economy has resulted in an
 unprecedented explosion in the demand for skilled IT workers.” An advantage of
 specialty titles is the ability to more easily identify the composition of the current IT
 population for IT workforce planning purposes and the ability to more readily link job
 titles with required competencies. 1

INFORMATION TECHNOLOGY MANAGEMENT, GS-2210
     Occupational   The specialties are ordered throughout this standard according to the system development life
      Information   cycle management process. A general description of the relationships among the specialties is
                    presented below:

                    • Policy and Planning – develop, implement, and ensure compliance with plans, policies,
                    standards, infrastructures, and architectures that establish the framework for the management
                    of all IT programs.
                    • Enterprise Architecture – analyze, plan, design, document, assess, and manage the IT
                    enterprise structural framework to align IT systems with the mission, goals, and business
                    processes of the organization.
                    • Security – plan, develop, implement, and maintain programs, polices, and procedures to
                    protect the integrity and confidentiality of systems, networks, and data.
                    • Systems Analysis – consult with customers to refine functional requirements and translate
                    functional requirements into technical specifications.
                    • Applications Software – translate technical specifications into programming specifications;
                    develop, customize, or acquire applications software programs; and test, debug, and maintain
                    software programs.
                    • Operating Systems – install, configure, and maintain the operating systems environment
                    including systems servers and operating systems software on which applications run.
                    • Network Services – test, install, configure, and maintain networks including hardware
                    (servers, hubs, bridges, switches, and routers) and software that permit the sharing and
                    transmission of information.
                    • Data Management – develop and administer databases used to store and retrieve data and
                    develop standards for the handling of data.
                    • Internet – provide services that permit the publication and transmission of information about
                    agency programs to internal and external audiences using the Internet.
                    • Systems Administration – install, configure, troubleshoot, and maintain hardware and
                    software to ensure the availability and functionality of systems.
                    • Customer Support – provide technical support to customers who need advice, assistance,
                    and training in applying hardware and software systems.




 1
  OPM’s Job Family Standard for Administrative Work in the Information Technology Group, page 20.
 http://www.opm.gov/fedclass/html/gsseries.asp#2200.
                                                                                   Appendix C

Scope and Methodology
To accomplish our objective, we:

    • Reviewed prior Government Accountability Office and Office of the Inspector
      General reports.

    • Reviewed various Office of Personnel Management publications.

    • Reviewed various Social Security Administration documents pertaining to Human
      Capital Planning.

    • Interviewed Agency personnel familiar with the hiring, training, and retaining
      information technology (IT) specialists at the Agency.

    • Requested and reviewed information from the five Deputy Commissioner offices
      with the highest number of IT specialists on staff at the Agency. These were the
      Offices of the Deputy Commissioners for Systems; Operations; Quality
      Performance; Budget, Finance and Management; and Disability Adjudication and
      Review. We assessed these offices’ practices, policies, and procedures
      regarding hiring, training, and retaining IT specialists. Specifically, we reviewed
      the Agency’s
        procedures for hiring and recruiting IT specialists,
        plans for ensuring new IT specialists are properly trained,
        efforts to have experienced staff assist in training newly hired IT specialists
         before leaving or retiring from the Agency, and
        plans for retaining IT specialists once trained.

The principal entities reviewed were the Offices of the Deputy Commissioners for
Systems; Operations; Quality Performance; Budget, Finance and Management; and
Disability, Adjudication and Review. We performed our review in Baltimore, Maryland,
from April to September 2009. We conducted this review in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections. 1




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Public Law
Number 110-409 § 7, 5 U.S.C. App. 3 § 11.
                                                                       Appendix D

The Information Technology Specialists’ Role at
the Social Security Administration
The information technology (IT) specialists at the Social Security Administration (SSA)
play a vital role in helping the Agency accomplish its goals. Below is a summary of the
IT specialists’ functions in the five Deputy Commissioner offices included in our review.

Deputy Commissioner for Systems (DCS)

As of June 2009, DCS reported approximately 2,965 IT specialists on staff. DCS
further reported these specialists contribute directly to the Agency's achievement of its
strategic goals. The IT specialists in DCS provide the vast majority of the technical
support needed to complete the maintenance, cyclical, carryover, and developmental
projects included in the Agency's 2-year IT Systems Plan. Any project selected
for inclusion in the IT Systems Plan must support the goals identified in the Agency’s
Strategic Plan.

Examples of projects selected for inclusion in the Fiscal Year 2009 - 2010 Plan include
the iClaim rollout, Ready Retirement releases, Representative Payee System redesign,
Compassionate Allowance releases, etc.

Deputy Commissioner for Operations (DCO)

As of June 2009, DCO reported approximately 275 IT specialists on staff. DCO
reported the IT specialists develop regional workload management tools. In addition,
DCO staff explained the specialists provide technical systems support and serve as
subject matter experts for new automated processes that include (but are not limited to)
Ready Retirement and iClaim. Finally, IT specialists in regional locations provide a vital
layer of network support to several thousand users in the regions. By supporting day-
to-day operations of the network in the regions and implementation of important
infrastructure upgrades, these IT specialists enable thousands of employees to serve
the public.

IT specialists in DCO also provide support for the transition from paper to electronic
folders by streamlining and automating case tasks to decrease the time it takes to
prepare and send notices, schedule hearings, and transfer workloads.




                                           D-1
Deputy Commissioner for Quality Performance (DCQP)

As of July 2009, DCQP reported approximately 97 IT specialists on staff. Further,
DCQP reported its IT specialists were indirectly involved in supporting all the Agency's
strategic goals, since the component has major responsibilities for evaluating and
advancing quality activities in SSA. Several automation tools developed by DCQP
assist the Agency in developing and processing disability and overpayment cases.
According to DCQP staff, these tools have proven to be critical in improving the quality
and efficiency of field office claims and development activities.

DCQP staff further explained its IT specialists are directly involved in the Access to
Financial Information project. The specialists provide support for the workstations and
networks used by Access to Financial Information team members; support the analysis
of data associated with the pilot; and provide expert consultation on such topics as
database architecture and systems security.

Deputy Commissioner for Budget, Finance, and Management (DCBFM)

As of July 2009, DCBFM reported approximately 76 IT specialists on staff. Further,
DCBFM reported that, as an Agency support component, its IT specialists primarily
contribute to achieving the Agency's strategic goals by supporting end-users, back-end
services, and applications used SSA-wide, such as SSA's Streamlined Acquisition,
Budget Execution, Online Accounting and Reporting, Managerial Cost Accounting
Systems, and Electronic Government.

DCBFM staff stated its IT specialists also contribute to achieving Agency strategic goals
by supporting SSA’s Digital Library and by working closely with disability determination
services and hearing offices to improve Digital Library response times.

Deputy Commissioner for Disability Adjudication and Review (DCDAR)

As of June 2009, DCDAR reported approximately 74 IT specialists on staff, including
8 specialists in DCDAR headquarters, 10 specialists in regional offices, and
56 specialists in field locations. DCDAR staff explained its IT specialists in
headquarters automate administrative applications that replace manual or paper
processes used in DCDAR, including workload summary reports, statistical indexes, on-
line surveys, and ad hoc reports for workload management purposes that supplement
standard management information derived through case processing. In addition, IT
specialists in DCDAR’s Division of Security develop and implement component-specific
security policies and procedures and provide security support and guidance to DCDAR
personnel nationwide.




                                           D-2
In the regions, DCDAR's IT specialists act as coordinators for all electronic folder
design and implementation activities for their regions, represent management in a full-
range of electronic workload initiatives, and direct major projects that introduce new
equipment, case handling, and training efforts to enhance electronic case processing.
In addition, the IT specialists diagnose and fix systems-related problems associated
with various electronic initiatives, monitor performance of processes in offices, and
oversee and support the introduction of new equipment to support electronic processes.

Finally, in field locations, DCDAR’s IT specialists upload documents through the
electronic folder process, act as a central coordination point for administrative law judge
electronic signature administration and support, and implement and support central
printing operations to lessen the need for notice preparation in hearing offices.




                                            D-3
                                                                                                           Appendix E

Overview of the Social Security Administration’s
Information Technology Planning Process
Below is an overview of the Agency’s Information Technology (IT) Planning Process. IT
planning is the effort to allocate Agency resources associated with its IT processes.
This allocation includes both Agency employees and contractor resources. At present,
the Agency’s IT planning efforts are focused on employees in the Office of Systems
and contractors funded through the IT systems budget.




                                                                                        April
                                                   April                                                              April
        February / March                                                        Sponsors prepare
                                                                                  IT proposals &                  Portfolio Teams
      Portfolio teams assess                  ITAB provides
                                                                                draft CBA/BVS for                review Sponsor IT
        Portfolio vision and                   guidance on
                                                                                identified Portfolio                proposals &
      health, identify need for             resources for each
                                                                                  gaps or where                recommend items for
       new items. Planning                      Portfolio.
                                                                                  initiative would                Systems review.
     Staff works with Portfolio                                                 provide significant
       Managers to develop                                                              value.
     recommended guidance
              for ITAB.




                                                                                                                     May
                                                              May / June
                                                                                                           Office of Systems develops
                    July                                Portfolio Teams prepare a
                                                                                                           resource estimates on new
               ITAB review                      recommendation of specific IT proposals
                                                                                                           and carryover IT proposals
              and approval of                    for the Agency IT Plan. Cross Portfolio
                                                                                                           and maintenance & cyclical
              Agency IT Plan.                    meeting held to develop recommended
                                                                                                                     projects.
                                                          Agency Plan for ITAB.

                       Portfolio teams meet periodically to discuss health of IT Plan and new proposals.
                       ITAB meets quarterly to discuss health of portfolios and new proposals.
                                                                                                                    Prepared by ODCS Planning Staff

Acronym Legend
BVS Benefit Value Score
CBA Cost Benefit Analysis
ITAB Information Technology Advisory Board
                                                                   Appendix F

Deputy Commissioner for Systems’ 2008 Information
Technology Workforce Planning—Competencies and
Targeted Skills
Every 2 years, the Office of the Deputy Commissioner for Systems (DCS) conducts an
Information Technology (IT) Workforce Survey Analysis to assess the skills of its IT
specialist workforce. The most recent analysis was completed in 2008. During the
analysis, all DCS supervisors are asked to complete a survey and record the current
competencies and targeted skills for each of their IT specialists. The difference
between the component’s future needs for the next 2 years and the current skills
equate to competency gaps. See the list below for the complete listing of future
competencies and targeted skills used to assess DCS’ 2008 IT specialist workforce.

COMPETENCIES

Analysis and Design
 Business Process Analysis, General Analytic Skills, Information Architecture and
  Design, Regression Testing, Requirements Engineering, System Design (Logical &
  Physical), User Centered Design

Enterprise Architecture
 Oversight, Solutions

Infrastructure/Networking
 Configuration Management, Data Management, Data Management-XML, Database
   Administration, Distributed Systems, Infrastructure Design, IT Architecture, IT
   Performance Assessment, LAN Administration, Network Management, Systems
   Integration, Telecommunications

Organizational Oversight
 Financial Management, Human Resource Management, Leadership/Managerial,
  Performance Assessments, Process/Change Management, Strategic Thinking

Organizational Support
 Accessibility, Audio Visual Expertise, Customer, Relations/Service, Education &
  Training, Facilities Management, General Office Support, Graphical Presentations,
  Group Facilitation, Human Resource Support, Knowledge Management, Microsoft
  Desktop Tools, Multimedia Technologies, Oral and Written Communications,
  Organizational Development, Problem Solving, Product Evaluation, Team Building,
  Technical Writing, Technology Awareness



                                         F-1
Program/Project/Contract Management
 Contracting/Contract Management, Earned Value Analysis, MS Project, Peer
  Review, Planning, Program Management, Project Management, Systems Life
  Cycle/Software Development

SSA Business/Systems’ Knowledge
 Debt Management Knowledge, Disability Knowledge, Earnings Knowledge,
  Enumeration Knowledge, Financial Knowledge, Human Resources Knowledge,
  Management Information/Work Measurement Knowledge, Medicare Knowledge,
  Title II Knowledge, Title XVI Knowledge

Security
 Continuity of Operations Planning, Disaster Recovery, Encryption, Information
  Systems Security Certification, Network Security, Risk Management, Security
  Related Software Administration

Systems Management and Operations
 Capacity Management, Hardware, Hardware-System I, Help Desk Support,
  Imaging/Image Management, Monitoring Tools, Operating Systems, Operations
  Support, Storage Management, Systems Integration Testing, Systems Software
  Maintenance

Systems/Software Development
 Artificial Intelligence, CMM Compliant Processes, Computer Languages, Database
  Application Development, Document Management, Geographic Information
  Systems, Object Oriented Application Development, Quality Assurance/Quality
  Control, Reporting Tools, Software Engineering, Software Evaluation, Software
  Testing, Software Validation, Usability Testing

Web Development Technology
 e-Commerce, Web Technology, Websphere

TARGETED SKILLS

Computer Languages
 ALC (Assembler Language Code), COBOL, Cold Fusion, Customer Information
  Control System (CICS), Java, Job Control Language (JCL), PowerBuilder

Database Administration
 CA/IDMS Database Administration, Content Manager, DB2 Database Administration,
  MADAM, Object Access Method (OAM), Oracle Database Administration

Database Application Development
 DB2 Application Development, IDMS Application Development




                                         F-2
                  Appendix G

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      March 2, 2010                                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “ The Social Security Administration’s
           Hiring and Training of Information Technology Specialists” (A-13-09-19082)--NFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate your
           efforts in conducting this review and are pleased that you found that we have an effective hiring,
           training, and retention strategy for Information Technology Specialists. We do not have any
           comments on the report findings.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.
                                                                     Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Nicole Gordon, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-09-19082.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
